HHS/OIG Audit Report:"Review of Outpatient Pharmacy Services Provided by the News Milford Hospital for Fiscal Year Ending September 30, 1999 (CIN: A-01-00-00547) April 24, 2001
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Outpatient Pharmacy Services Provided by the News Milford Hospital for Fiscal Year Ending September 30,
1999, (A-01-00-00547)"
April 24, 2001
Complete
Text of Report is available in PDF format (692 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
In Fiscal Year (FY) 1999, New Milford Hospital (Hospital) submitted for reimbursement about $1.2 million in charges for
outpatient pharmacy services of $50 or more under revenue center code 250- Pharmacy. To determine whether controls were
in place to ensure compliance with Medicare regulations, we reviewed the medical and billing records for a sample of 117
claims. Our analysis disclosed that the hospital did not establish or follow existing procedures for the proper billing
of these services. As a result, certain charges did not meet Medicare criteria for reimbursement due to erroneous billings
for medications used under conditions not covered by Medicare, medications not properly supported by medical records, and
unallowable self­administered medications. Based on our statistical sample, we estimate that the Hospital overstated its
FY 1999 Medicare outpatient pharmacy charges by at least $166,160. We recommended that the Hospital strengthen its procedures
to ensure that charges for pharmacy services are covered and properly documented in accordance with Medicare regulations.
We are also providing the results of our audit to Empire Medicare Services, the Hospital's Fiscal Intermediary, so that
it can apply the appropriate adjustment of$166,160 to the Hospital's FY 1999 Medicare cost report. The Hospital agreed
with our recommendations and indicated that it has implemented corrective action.